           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   MANAGEMENT OF ALLEGATIONS
     BY THE SOCIAL SECURITY
        ADMINISTRATION’S
       OFFICE OF SYSTEMS

    October 2004   A-13-04-14047




  EVALUATION
    REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM


Date:   October 15, 2004                                                                Refer To:

To:     Bill Gray
        Deputy Commissioner
         for Systems

From:   Assistant Inspector General
         for Audit

Subject: Management of Allegations by the Social Security Administration’s Office of Systems
            (A-13-04-14047)

        OBJECTIVE
        Our objectives were to evaluate the Social Security Administration’s (SSA) Office of
        Systems’ (OS) management of allegations and determine whether all allegations that
        should have been referred to the Office of the Inspector General (OIG) were, in fact,
        referred.

        BACKGROUND
        SSA receives various types of allegations1 related to its programs, employee conduct,
        and the misuse of Social Security numbers. SSA receives allegations from a number of
        sources: employees, the general public, other Agencies, or the OIG.2

        SSA has established policies and procedures for managing allegations. For example,
        Agency policy states that SSA offices shall report cases of potential criminal violations
        to the OIG as quickly and efficiently as possible.3 SSA policy also states that
        allegations against SSA employees concerning non-criminal types of potential
        violations, such as, ethics or equal employment opportunity issues, are generally
        referred to the component responsible for addressing the specific issue.



        1
            Allegations are assertions or suspicions that are unproven.
        2
          The OIG has established a Hotline as an avenue for reporting fraud, waste and abuse within SSA’s
        programs and operations. The Hotline receives allegations by telephone, regular and electronic mail, and
        facsimile. OIG determines an appropriate course of action to resolve the allegation, including referring
        the allegation to SSA for development of the facts and/or resolution.
        3
            SSA’s Program Operations Manual (POMS), section GN 04111.005 B
Page 2 - The Commissioner


In determining the validity of allegations constituting potential criminal violations, SSA
policy requires that “…each potential violation and allegation must be developed…to the
point where enough evidence has been secured to either remove suspicion…or
substantiate the violation.”4

OS guides and manages the development, acquisition, and use of SSA's information
technology resources that support the Agency's programmatic and business functions.
Because of the potential impact on SSA’s information system infrastructure and
programs, we believe allegations of potential criminal violations concerning OS
employees or operations require documentation of their development and timely
resolution.

RESULTS OF REVIEW
We were unable to determine whether all allegations that should have been referred to
OIG were in fact referred. OS did not have a system to record the receipt,
development, and disposition of allegations about OS employees or operations detected
within or received by OS. As a result, OS was unable to provide evidence to document
its management of allegations.

SYSTEM TO DOCUMENT ALLEGATIONS

OS lacked a system to record the receipt, development, and disposition of allegations
about OS employees or operations detected within or received by OS. SSA policies
and Federal law indicate that documentation should be created and retained.

SSA policies and procedures require, “…when an allegation is received, sufficient
evidence be obtained to support or remove suspicion that a criminal violation may have
occurred.”5 Federal agencies' records creation, management, and disposal duties are
set out in a collection of statutes known as the Federal Records Act (FRA).6 Records
are defined as,

          All books, papers, maps, photographs, machine readable [i.e., electronic]
          materials, or other documentary materials, regardless of physical form or
          characteristics, made or received by an agency of the United States
          Government under Federal law or in connection with the transaction of
          public business and preserved or appropriate for preservation by that
          agency…as evidence of the organization, functions, policies, decisions,



4
    POMS, section GN04110.010B.
5
    POMS, section GN 04110.010B.
6
    See 44 U.S.C. §§ 2101 et seq., 2901 et seq., 3101 et seq., 3301 et seq.
Page 3 - The Commissioner


          procedures, operations, or other activities of the Government or because
          of the informational value of data in them.7

SSA has discretion in determining whether a document received or created by the
Agency is properly considered an agency record.8 However, at least one court has
indicated that it would be improper as a matter of law for an Agency to characterize an
entire class of records as not Agency records.9

Agency officials stated that some SSA managers retain initial employee allegation
development documentation. This documentation is stored with other short-term
projects or issues the manager may be addressing during the same period. After the
initial development process, substantiated allegations that indicate possible criminal
activity are referred to the OIG for further action. These allegations are retained by
OIG. Substantiated allegations that do not indicate criminal activity are placed in the
appropriate personnel file, and retained accordingly. Unsubstantiated allegations are
destroyed following development. We believe SSA should document management
activities sufficient to permit OIG to assure that SSA is making appropriate referrals of
suspected criminal activity and that record destruction is carried out in accordance with
the FRA.10

During our review, we determined that OS did not have a system to record the receipt,
development, and disposition for the 8 allegations referred by the OIG during our audit
period of Fiscal Years (FY) 2000 through 2002. Specifically, OS did not maintain
documentation to verify that “…enough evidence has been secured to either remove
suspicion…or substantiate the violation.” Moreover, OS did not maintain documentation
for allegations received from sources other than the OIG. Office of System’s
management stated that it does not have a system to monitor and track the receipt and
resolution of allegations.

Since OS did not maintain allegation documentation, we attempted to obtain data on OS
related allegations from other sources, such as OIG’s Office of Investigations (OI) and
SSA’s Office of Human Resources (OHR). We obtained information from OI records,
which indicated that OI had referred a total of 8 allegations to OS for development
during FYs 2000 through 2002. The OI records indicated OS reported developing 6 of
the 8 allegations. Subsequently, this development led to the allegations being closed by
OI. The OI records also indicate that 2 allegations remain open.
7
    44 U.S.C. § 3301.
8
    Armstrong v. Executive Office of the President, 1 F.3d 1274, 1283-84 (D.C. Cir. 1993).
9
    Id.
10
  The FRA prescribes the exclusive mechanism for the retention and disposal of Federal records: “…no
records may be ‘alienated or destroyed’ except in accordance with the FRA's provisions." See 44 U.S.C.
§ 3314. The National Archives and Record Administration (NARA) issues General Record Schedules,
setting retention periods for documents maintained by all agencies. In addition, NARA has approved
record schedules for other SSA records. However, we are not aware of a record retention schedule
specifically addressing retention policies for unsubstantiated employee allegations.
Page 4 - The Commissioner


OS provided information that the 2 remaining allegations were developed and closed.
However, there was no documentation indicating that this information was
communicated to the OI. We requested that OS provide documentation for the 8
allegations supporting or removing suspicion that a criminal violation may have been
committed. OS was unable to provide us with the requested data.

In addition, we requested information from OHR for adverse actions taken against OS
employees. The information is maintained in SSA’s Human Resources Management
Information System.11 OHR identified 10 adverse administrative actions taken against
OS employees during FYs 2000 through 2002.

We reviewed the adverse action files. Our review indicated 8 employee suspensions
and 2 terminations. None of the cases were referred to OIG. Our OI evaluated the
documentation pertaining to the adverse action files and determined that OS
appropriately exercised its discretion in deciding that these matters were not required to
be referred to OI.

CONCLUSION AND RECOMMENDATIONS
All SSA components, including OS, are required to obtain, “…enough evidence to either
remove suspicion…or substantiate that an alleged criminal violation may have been
committed.” OS does not record the receipt, development, and disposition of
allegations. As a result, OS management is unable to document that appropriate and
consistent actions are taken.

During FYs 2003 and 2004, the OIG initiated or completed reviews concerning the
management of employee-related allegations in most SSA Regional Offices.12 We
found that policies and procedures for maintaining records and retaining documentation
varied between Regions. Some had region-specific policies and procedures to
supplement SSA-wide criteria, which does not appear to specifically address employee
allegations. As of July 2004, we have issued reports to the Regional Commissioners in
New York, Atlanta, Dallas, Denver, and San Francisco. The reports contain
recommendations similar to those discussed within this report. The Regional
Commissioners generally agreed with our recommendations.

We recommend OS:

1. Develop and implement a control system that documents the receipt, development,
   and disposition of all allegations.



11
  SSA’s Human Resources Management Information System is an electronic database containing
employees’ employment history with SSA.
12
   OIG reviews were underway in SSA’s Atlanta, Chicago, Denver, New York, Philadelphia, and San
Francisco Regions.
Page 5 - The Commissioner


2. Develop and implement written policies and procedures to ensure appropriate
   information is recorded in the control system.

3. Clarify retention periods for documents maintained in the control system.

AGENCY COMMENTS
In response to our report, the Deputy Commissioner for Systems (DCS) in coordination
with staff in the Office of Human Resources did not concur with our recommendations.
The Agency stated, "Any control system as described in the OIG recommendations
would have to be part of a system of records established under the provisions of the
Privacy Act." In addition the Agency stated, "Any system of records would have to be
consistent with existing and future collective bargaining agreements."

OIG RESPONSE
We are sensitive to the Agency’s concerns. However, based on the existence of
allegation control logs in SSA’s regional offices and the Agency’s acceptance of similar
recommendations in those Regions, we believe the issues raised in this audit should be
addressed at the national level to ensure uniformity throughout the Agency.




                                               S
                                               Steven L. Schaeffer
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
DCS      Deputy Commissioner for Systems
FRA      Federal Records Act
FY       Fiscal Year
NARA     National Archives and Records Administration
OHR      Office of Human Resources
OI       Office of Investigations
OIG      Office of the Inspector General
OS       Office of Systems
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

      •   Interviewed Office of System’s (OS) personnel to obtain an understanding of how
          OS manages allegations and the policies and procedures it uses when a
          potential violation is detected in OS or referred to it for development.

      •   Reviewed the Social Security Administration’s Program Operations Manual
          System (POMS),1 General Record Schedules, and Annual Personnel Reminders
          to understand SSA policies regarding ethical standards of conduct.2

      •   Requested OS to provide records of allegations it has managed during Fiscal
          Years (FYs) 2000 through 2002.

      •   Reviewed documentation for allegations referred by Office of the Inspector
          General to OS during FYs 2000 through 2002.

      •   Reviewed documentation of adverse actions taken against OS employees during
          FYs 2000 through 2002.

We performed our evaluation from October 2003 through January 2004 in
Baltimore, Maryland. We were unable to assess the internal controls because of the
lack of documentation. The entity reviewed was the SSA’s Office of Systems. We
performed our evaluation in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




1
    POMS, section GN Chapter 04100 (Violations Fraud).
2
 SSA issues an Annual Personnel Reminder booklet on SSA policies regarding common employee
conduct issues to supplement the Federal regulations on standards of ethical conduct applicable to all
executive Branch employees (5 Code of Federal Regulations, Part 2635).
                  Appendix C

Agency Comments
From: ^DCS Audit
Sent: Thursday, August 26, 2004 6:02 PM
To: ^OIG Audit
Cc: Todd, Shirley; ^DCHR Audit; ^OPLM Audit; ^HQ OGC Audit; ^DCS Controls
Subject: FW: 22004002, OIG Draft Report, "Management of Allegations by the Social Security
Administration's Office of Systems"

ICN: 34212-9-4307 DCS Correspondence: Please close the control for DCHR,
DCFAM (OPLM) and OGC. Thx Jackie



               From the Office of the Deputy Commissioner for Systems

               Thank you for the opportunity to respond formally to your report.
               Your recommendations are:

               1.   Develop and implement a control system that documents the receipt,
               development, and disposition of all allegations.

               2.   Develop and implement written policies and procedures to ensure
               appropriate information is recorded in the control system.

               3.   Clarify retention periods for documents maintained in the control
               system.

               Many discussions concerning this topic have taken place among staff (DCS,
               OIG, DCHR, OGC and OPLM). DCS's position, with support from our
               counterparts, remains unchanged. Adopting the system of records that you
               recommend is outside of DCS's purview. Our concern, however, is the
               report's suggestion that DCS does not follow established guidance.

               We believe, and DCHR supports, that our actions are appropriate when we
               do not retain evidence or permanently record investigative activity of
               a probe that reveals an allegation is unfounded. The report infers we are
               taking inappropriate action by citing various SSA policies and Federal
               regulations. What is missing in each citing is the requirement
               to retain evidence or record investigative activity. What the report does
               reveal--for allegations received through OIG and adverse actions--is that
               DCS appropriately[1] forwards information to the proper custodian of
               records, either OIG or DCHR, for action. The report also indicates that of
               those investigative cases that were appropriately retained in DCHR and
               reviewed by OIG, DCS properly developed the allegations and took
               appropriate action.



                                                C-1
               We believe the report, throughout, should indicate that DCS's
               recordkeeping for unsubstantiated allegations is appropriate under the
               policies/regulations that exist. Regarding changing that policy, we have
               attached DCHR's response as it is the Agency designated authority on these
               issues. Any decisions to establish the subject recordkeeping fall under
               DCHR's responsibility. Therefore, we recommend that you direct your final
               report to DCHR.

               Staff may direct questions concerning DCS's position to Ellen Currotto at 5-
               6071. Questions concerning DCHR's response may be directed to Scott
               Mason at 5-7030.

               William E. Gray




[1][1] With the exception of two items where allegations originated through OIG (this is the only
instance where DCS must provide its findings to OIG), but OIG records did not contain resolution
information. At this point, it is unverifiable if DCS did not respond or OIG did not process the
information from DCS. Apparently, OIG does not have a follow-up interval in its processes as the
missing responses only came to light during this review.




                                                C-2
August 17, 2004


TO       :    Ellen Currotto

FROM      :   Scott Mason /S/

SUBJECT:      ICN: 34212-9-4307 Request for Comment, OIG Draft Report,
              “Management of Allegations by the Social Security Administration’s Office
              of Systems”
              (A-13-04-14047)–REPLY


The OIG draft report questions whether SSA components, which have the responsibility
to initially investigate allegations of wrongdoing against individual employees, are
thoroughly evaluating and referring to OIG all cases deserving of further legal review
and, possibly, prosecution. OIG’s concerns stem from the current lack of a complete
audit trail for such investigations, since components are not maintaining records for
cases they have investigated but found to be without merit. To enable OIG to
selectively verify the correctness of component decisions not to refer certain cases,
OIG’s first recommendation is that the Office of Systems (OS) “develops and
implements a control system that documents the receipt, development and disposition
of all allegations.”

Any control system as described in the OIG recommendations would have to be part of
a system of records established under the provisions of the Privacy Act. It is unclear if
the Report or recommendation appreciate the applicability of the Privacy Act. A system
of this nature would have to be published in the Federal Register and, presumably, it
would have safeguards against unauthorized disclosure as stipulated by the Privacy
Act.

However, even if the system were properly established in accordance with the Privacy
Act, OHR has serious reservations about maintaining official files on allegations that
have been determined to be unsubstantiated. It would put SSA in the dubious position
of maintaining, on the record, what could be unfair, unfounded and, potentially, injurious
information on its employees. We have serious concerns that knowledge gleaned from
these records could become the basis for innuendo and unintended consequences that
could unnecessarily adversely impact the lives and careers of the employees involved.
Hopefully, that would never happen, but the perception that it could is problematic.

In addition to the Privacy Act provisions, any system of records would have to be
consistent with existing and future collective bargaining agreements. The expired
National Agreement between SSA and the American Federation of Government
Employees allows for the maintenance of records pertaining to employees, but
specifically requires in Article 3, Section 4.A. 3. that:




                                           C-3
       An employee has the right to be informed about records that are maintained
       about him or her and are filed, in a system of records that is personally
       identifiable. Upon request, an employee may also see such records and have a
       copy made of them. The Employer will provide an annual notice to each
       employee regarding these rights.

Accordingly, if a system of records was created pursuant to the OIG recommendation,
the Agency would be required to inform the employee about the existence of those
records and allow the employee to review and receive a copy of materials in any such
file upon request. In addition, if the Agency initiated a disciplinary action as a result of
the allegations, any documents that the Agency relies upon must be placed in the SF 7-
B file and given to the employee.

Furthermore, the report defines allegations as “assertions or suspicions that are
unproven.” By requiring OS to create a system to track “all” allegations, OIG does not
distinguish between a serious allegation of fraud, waste and abuse and an allegation
over very minor misconduct that would not warrant discipline. This definition has very
broad implications since, it in essence, would require the maintenance of “dirt files”
which are never acted on by the Agency. Maintenance of such files may trigger a
bargaining obligation under the Federal Service Labor-Management Relations Statute.

During the audit, OIG requested that OS provide documentation for eight allegations
that were referred to OIG’s Office of Investigations (OI) as, “supporting or removing
suspicion that a criminal violation may have been committed.” OIG was critical of OS
for being unable to provide the documentation. Since these matters were previously
referred to OI by OS, it would appear to be duplicative for OS, or any other component
where OI is conducting a follow-up investigation, to maintain the same information. This
is especially significant since OI evaluated the documentation pertaining to the adverse
action files and determined that OS appropriately exercised its discretion in deciding
that these matters were not required to be referred to OI. Also, maintenance of
allegations that were determined not to be true may be unfair to the employee against
whom the unfounded allegation was made and could cast unfair suspicion on the
employee.

Further, while the current report applies only to OS, a recommendation to adopt could
become Agency-wide and may prove to be extremely burdensome. In addition, such a
requirement would create a separate system of records in each component to track all
kinds of allegations, regardless of their validity. There are systems of records in place,
both Agency-wide and within the components, to maintain information when disciplinary
action is proposed.

For the above reasons, we disagree with OIG’s first recommendation that OS “develop
and implement a control system that documents the receipt, development and
disposition of all allegations.”




                                            C-4
The second and third recommendations assume the establishment of a control system
for the “Management of Allegations” and contain the protocol for its establishment. As
we recommend against the need for such a system, there is no need to further develop
the remaining recommendations.




                                          C-5
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Division, (410) 966-9365

   Brian Karpe, Audit Manager, (410) 966-1029

Acknowledgments

In addition to those named above:

   Jerry Hockstein, Senior Analyst

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web sit at www.ssa.gov/oig or
contact the OIG’s Public Affairs Specialist at (410) 965-3218. Refer to Common
Identification Number A-13-04-14047.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                            Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                        Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and mismanagement in
SSA programs and operations. This includes wrongdoing by applicants, beneficiaries, contractors, third
parties, or SSA employees performing their official duties. This office serves as OIG liaison to the
Department of Justice on all matters relating to the investigations of SSA programs and personnel. OI
also conducts joint investigations with other Federal, State, and local law enforcement agencies.


                    Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures
and techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Finally, OCCIG administers the Civil Monetary Penalty program.


                                  Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
